<html>
<title> - FIELD HEARING ON COMCAST AND NBC UNIVERSAL: WHO BENEFITS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]








                COMCAST AND NBC UNIVERSAL: WHO BENEFITS?

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2010

                               __________

                           Serial No. 111-142




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-919                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




















                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
MICHAEL F. DOYLE, Pennsylvania       MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
ANTHONY D. WEINER, New York          LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE FERGUSON, New Jersey
CHARLIE MELANCON, Louisiana
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)













                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
    Prepared statement...........................................     3
Hon. Steve Buyer, a Representative in Congress from the State of 
  Indiana, opening statement.....................................     5
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     6
    Prepared statement...........................................     9
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................   216

                               Witnesses

Hon. Maxine Waters, a Representative in Congress from the State 
  of California..................................................    12
    Prepared statement...........................................    15
Jonathan Jackson, Rainbow PUSH Coalition.........................    34
    Prepared statement...........................................    36
Will Griffin, President and Chief Executive Officer, Hip Hop 
  OnDemand.......................................................    40
    Prepared statement...........................................    44
Samuel R. DeSimone, General Counsel, Earthlink...................    50
    Prepared statement...........................................    52
Paula Madison, Executive Vice President, Chief Diversity Officer, 
  NBC Universal..................................................    62
    Prepared statement...........................................    64
Joseph W. Waz, Jr., Senior Vice President, External Affairs and 
  Public Policy Counsel, Comcast Corporation.....................    74
    Prepared statement...........................................    77

                           Submitted Material

Letter of July 6, 2010, from CoLours TV to Mr. Boucher...........   217
Comcast and NBCU's Summary of Diversity Commitments..............   218

 
       FIELD HEARING ON COMCAST AND NBC UNIVERSAL: WHO BENEFITS?

                              ----------                              


                         THURSDAY, JULY 8, 2010

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2525, Dirksen Federal Building and Courthouse, 219 South 
Dearborn Street, Chicago, Illinois, Hon. Rick Boucher [chairman 
of the subcommittee] presiding.
    Members present: Representatives Boucher, Rush and Buyer.
    Also present: Representative Waters.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. Good morning to everyone. The Subcommittee on 
Communications, Technology and the Internet will come to order.
    Today, at the suggestion of our subcommittee colleague, Mr. 
Rush, we are in Chicago to conduct the subcommittee's second 
hearing on the proposed combination of two of our nation's 
largest media and entertainment companies Comcast and NBC 
Universal.
    I appreciate the outstanding contributions that Congressman 
Rush makes to the work of our committee. He is Chairman of our 
Subcommittee on Commerce and Consumer Protection, and in that 
role I've had an opportunity to work closely with him as we 
have together worked to fashion a set of privacy guarantees for 
internet users. And, of course, he is a member of this 
Subcommittee and makes a truly valuable contribution to our 
work. And I want to thank Congressman Rush and his staff for 
their excellent help in making the arrangements for today's 
hearing. It's truly been a pleasure for me to have the 
opportunity to be here. And I know that our focus today on the 
Comcast-NBC Universal Merger will be aided very much by the 
testimony that we receive from our witnesses this morning.
    Comcast is the nation's largest multi-channel video program 
distributor, the largest retail broadband provider, and the 
third largest home telephone service provider, as well as the 
owner of numerous cable channels and regional sports networks.
    As measured by annual revenues, NBC Universal is the 
nation's fourth largest media and entertainment company. It 
owns the NBC and Telemundo television networks, television 
broadcast stations in some of the largest markets in the United 
States, cable channels, a movie studio, as well as an interest 
in the online video programming provider, Hulu.com.
    The key question for this Subcommittee, as well as for the 
FCC, and the U.S. Department of Justice who are reviewing this 
proposed combination is how the proposed combination will 
affect consumers. And, of course, both of these companies 
deliver a range of services, and the question is with regard to 
those services how will consumers be affected.
    Some combinations benefit consumers by enabling a more 
efficient delivery of new and better products and services, but 
there also is the potential for consumer harm due to a 
limitation of choices that are available to consumers, or by 
limiting competition in a way that makes services more 
expensive than they would be in an open market.
    In our previous hearing, we examined the potential harms 
that could arise if the merged company restricts the internet 
delivery of NBC Universal-owned programs that are offered off-
line to the public for free today, to web portals that are 
available only to the Comcast broadband subscribers. We sought 
and we obtained commitments and assurances from the companies 
that access to those programs would not be so restricted.
    Today, we will focus on other potential effects of the 
merger, including how it will affect the company's practices 
with respect to diversity and employment, procurement, media 
programming and philanthropy.
    I look forward to the testimony of our witnesses on these 
and other matters. And I want to thank each of our witnesses 
for taking time to join us here this morning. A number of them 
have traveled to Chicago for purposes of sharing their views 
with us, and I very much appreciate your doing so, and being 
here today.
    I'm going to recognize both members of the panel for their 
opening statements, and then we will turn to the testimony of 
our witnesses. And I'll begin by recognizing the Republican 
member of our Subcommittee on Communications, Technology, and 
the Internet, the gentleman from Indiana, Mr. Buyer.
    [The prepared statement of Chairman Boucher follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  OPENING STATEMENT OF HON. STEVE BUYER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Buyer. Thank you very much, Mr. Boucher.
    Welcome to Chicago, welcome to the Midwest. And, Bobby 
Rush, thank you for having us come here.
    I brought some Indiana folks with me last night, and I 
thought I would take in a White Sox game, and it rained. By my 
calculation, that was probably about an $80 beer, so we sipped 
it slowly and enjoyed it. And probably the best judgment of the 
night was during the clearing, we made a run for the taxi.
    Mr. Rush. Mr. Chairman, if I may add, we do have rain 
checks in Chicago.
    Mr. Buyer. Oh, OK. All right. Rain check.
    I would also like to welcome Maxine Waters for giving up 
her time in sunny California to come to the Midwest. Thank you, 
also, for being here.
    When this joint venture between Comcast and NBC Universal 
was first proposed, I was most interested in the reaction, or, 
I should say, the lack of reaction not only by policy makers, 
but also stakeholders and others within industry.
     My initial reaction, personally, was about the--in our 
culture we have something that we don't think about very often, 
but its silence can be interpreted as acquiescence or an 
admission. And it's part of our culture. So, when this merger 
first came out, there was silence. And I was--my curiosity was 
I did not believe that the silence would be interpreted as an 
acquiescence to the merger. And my commitment has been to keep 
an open mind regarding this merger, and to allow the parties to 
be able to come together and address concerns. And I thank my 
friend, Mr. Boucher, for doing this. I brought this to him. He 
also is feeling the same way I was, and he said yes, we're 
going to have some hearings on this, and we want to go into it, 
we want to dive into this.
    Now, the Chairman in his comments about concerns with 
regard to consumers, and he's correct. And the Department of 
Justice will do their review on--because of anti-trust and the 
impact on competition, but we also need an over horizon view.
    The over horizon view, when you do the long view and you 
look at the data points that are out there, you have to be 
really careful about trying to define an image based on what we 
know today. The reason I say you have to be very careful, 
because as policy makers, we've done this before. And we've 
tried to define what we thought it looked like at the moment of 
calling, and got it wrong. And we're in such a highly dynamic 
industry that we have to be really very, very careful.
    I decided to do my due diligence, just as, Mr. Chairman, 
you are doing yours, so since February, I've met with every 
industry representative out there from broadcasters, pay TV 
affiliates, non-affiliates, content providers, carriers. I've 
done big cable, small cable, satellite. I've met with all the 
stakeholders that I possibly could. But my take-away from all 
of these meetings is that, it came out of the hearing we had 
done in February, that there was a real need to define 
Comcast's commitment to the network affiliated model of free 
over-the-air broadcasting, especially as it pertains to 
localism.
    Also, protect the value of the network and preventing a 
cycling of key programming, and migration of this key 
programming. The other is prevent bypass of the affiliates for 
first call rights to competing platforms as it pertains to 
Comcast providing network programming. And, fourth, protect the 
integrity of the retrans consent process.
    And, primarily, my concern there lies with the small cable 
companies insuring that they not get lost by big cable in the 
retrans consent process leading to less competition and higher 
prices for consumers.
    I want to--also, as this began to unfold, I also watched 
how the non-affiliates began to work out their concerns. Rather 
than immediately rush to the FCC, they came together, the non-
affiliates did, and then took their concerns to Comcast, and 
they were able to come together in the private marketplace 
agreement.
    And then not only was that done, but then Comcast-NBC 
Universal had come together with their own agreements on many 
diversity issues. So, it's pretty good. They recognize that 
there's federal oversight, not only by the FCC, by your 
Committee, Mr. Chairman, but also by DOJ, so there are a lot of 
eyes being placed on this. So, the private sector are 
proceeding, and my reading of both of these agreements that 
have been done in the private sector, actually, they go beyond 
what I was even thinking about and considering. So, I want to 
congratulate the parties for leaning forward and doing what I 
think is right. So, with that, I yield back.
    Mr. Boucher. Thank you very much, Mr. Buyer. Thank you for 
taking the time to take part during this hearing this morning.
    I, again, want to thank Congressman Rush and his staff for 
their excellent assistance in arranging for today's hearing, 
and making sure that we could use the ceremonial courtroom here 
at the United States Courthouse. And Congressman Rush, I want 
to recognize you for your opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman. And let me begin by 
thanking you so much for the outstanding cooperation and 
leadership which you have provided to the Subcommittee. And you 
have really gone beyond what would be normally expected in 
regards to this hearing. You're in the middle of a tough 
campaign, and that you would take the time off to leave your 
district and come to Chicago to convene this hearing. I'm 
certainly grateful to be part of this. And it's a pretty 
significant moment in the life of the city of Chicago, here on 
the eve of the LeBron era. And I will note that I am an eternal 
optimist.
    (Laughter.)
    But, Mr. Chairman, I want to welcome you again, welcome 
your colleagues and welcome Congresswoman Waters, and my 
colleague on the Subcommittee, Mr. Buyer from Indiana. I want 
to welcome each of you to this hearing, and to the city that I 
love so much.
    Mr. Chairman, on that day that Comcast and NBC Universal 
secure their last approval from federal and state regulators to 
combine their highly attractive, and lucrative, distribution 
and video programming assets, a very powerful and influential 
media and information colossus will be born. When that will 
happen, immediate power to determine what our nation watches, 
what we read, from where we get our news, and even on which 
electronic and communications devices those images and data 
will appear.
    The $28 billion joint venture between Comcast and NBC 
Universal will give Comcast, already the country's largest 
cable and home broadband company, total say and control over 
the day-to-day operations of the NBC networks; the Telemundo 
network, NBC's two dozen national cable network channels, 
including MSNBC, Bravo, CNBC, and partial interests in the 
Weather Channel, A&E's History and Biography channels, NBC 
Network News, ``The Today Show,'' ``NBC Sunday Night 
Football,'' ``Meet the Press,'' and distribution rights to a 
library of more than 55,000 TV episodes, not to mention the 
Universal Pictures movie studio and distribution companies.
     Many of the purported benefits of this proposed 
combination have been framed in terms of when and where 
subscribers will realize benefits. Some of the more widely 
touted subscriber benefits put forward by the parties are that 
Comcast cable TV subscribers will be able to see movies more 
quickly after the first showing in theaters, or that because of 
this transaction TV shows will appear faster on subscribers' 
cell phones, video-on-demand web sites, and other digital media 
platforms and devices.
    These ``whens'' and ``wheres'' are very important, 
absolutely very important. And I am concerned about these when 
and wheres, but I'm also equally concerned, however, about what 
cable television, broadcast TV, news, public affairs, religious 
and community programs, sporting events and movie content will 
not be made available to subscribers of Comcast's competitors, 
or to the competitors of Comcast's new affiliates.
    And will the same content that is offered to Comcast 
broadband subscribers be made available to all broadband users, 
regardless of whom they subscribe to for broadband service?
    Despite the critical importance of program access and the 
equitable carriage of network affiliates on Comcast's cable 
systems, the most important issue of access, as far as I am 
concerned, the most important issue is minority ownership.
    As the largest media and information merger since AOL and 
Time Warner which, incidentally, disrupts community practices 
in cable and broadcast TV programming in so many markets, the 
significance of this transaction cannot be underestimated.
    This represents a real opportunity that minority businesses 
and investors must not miss. They must be fully engaged. And I 
am cognizant of the commitment that Comcast made publically 
last month for increasing diversity of ownership, and diversity 
in programming. Specifically, Comcast plans on adding these 
channels over the next three years. As you see, that half of 
these channels are minority owned or run represents an 
important and positive step for increased minority ownership. I 
am delighted with the developments.
    However, Mr. Chairman, I think that minorities can and 
will, and must have better seats at the boardroom table, and 
not just in the movie theaters and watching television in their 
living rooms.
    Mr. Chairman, this is an opportunity for us. And I would 
say during the course of the last few months, I am pleased and 
interested and somewhat delighted by the approach that Comcast 
and NBC have made towards satisfying our concerns. I'm still 
not satisfied. I'm still not there yet, but I want you to know 
that without any changes, we're just going to end up at the 
same place. And, Mr. Chairman, with that, I yield back the 
balance of my time.
    [The prepared statement of Mr. Rush follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Boucher. Thank you very much, Congressman Rush. And 
we're pleased to have joining us today a gentle lady from 
California, Ms. Waters. She is a senior member of the House 
Judiciary Committee, and while she does not serve on the Energy 
and Commerce Committee, we're very glad to have her here. She 
has strong interest in the subject matter we're examining this 
morning. And, in fact, was a leading participant in a hearing 
the House Judiciary Committee had on this subject in Los 
Angeles earlier this year.
    Ms. Waters, we're glad to have you here, and I'm pleased to 
recognize you for your statement.

 STATEMENT OF HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much, Mr. Chairman. I appreciate 
the opportunity that you've afforded me to come here today to 
be a part of this hearing. I'm especially appreciative to 
Congressman Rush for his assistance in making sure that I could 
participate as a panelist here today. And I'd like to thank all 
of my colleagues who are here today to participate in what I 
think is one of the most important hearings relative to media 
consolidation that we will have on this issue.
    Mr. Chairman, thank you for organizing this Field Hearing, 
and, again, allowing me the opportunity to participate. You're 
right, I have been involved with this issue for quite some time 
now, and my interest was basically triggered on June 7th, 2010 
when the House Committee on the Judiciary held a Field Hearing. 
Well, it was prior to that time, but I've been in two hearings 
to date on this issue, and I do have some concern. What I'd 
like to do is just take a moment and try and explain what those 
concerns are, and why I have those concerns.
    Over the past couple of months, I've been active in 
advocating for a process in the Federal Communications 
Commission's review of this merger, the opportunities for 
minorities in media have been severely limited as a result of 
deregulatory policies, and large media consolidations. This has 
concentrated our media industry into the control of a mere 
handful of corporations, constraining opportunities for 
minority ownership of media licenses.
    While I'm not presently, and have not indicated direct 
opposition to the Comcast-NBC merger, I do recognize it as a 
critical opportunity for both companies to implement a plan of 
action to address their shortcomings with respect to minority 
inclusion within their programming, management, ownership, and 
advertising activities.
    Ultimately, these diversity considerations are taken into 
account within the FCC's review proceedings. While both the FCC 
and DOJ have the statutory authority to review new mergers 
under our Federal Anti-Trust Laws, the FCC's process allows for 
a more comprehensive public interest analysis, including a 
deeply rooted preference for preserving, and enhancing 
competition, and generally managing the spectrum in the public 
interest, in the public trust.
    Therefore, my concerns about this merger are based on the 
potential impact on diversity, competition, and whether 
consumers will enjoy diverse and alternative sources of news 
and entertainment. From what we have gathered about the 
companies' organizational structures, both Comcast and NBC have 
a lot of work to do.
    NBC Universal has 18 corporate executives, while two of the 
18 are minorities, including Ms. Paula Madison, who's here 
today. Their primary responsibilities do not include managing 
networks, and producing content. Despite Ms. Madison's efforts 
to work with the key executives to promote diversity throughout 
NBC Universal, the company continues to fall short in setting 
tangible benchmarks, and achieving results in increasing 
minority representation among its high-level management and 
executive positions.
    NBCU does not have any African American show runners over 
its prime time, daytime, or late night programming. This means 
African Americans are not in positions where they oversee 
budgets, and the hiring of actors, writers, co-producers, and 
technical employees. It is important to have diversity in these 
management positions, because they create employment 
opportunities for other producers, writers, directors, and 
actors.
    Similarly, NBC's Universal Studios do not employee African 
Americans with the authority to decide which film projects are 
ultimately given the necessary support to make it to the big 
screen, that is green light.
    The President and COO of NBC Universal Studios is a white 
male. The President and Chairman of Universal Pictures and 
Focus Features also white. Of the 21 films NBC Universal 
Pictures released in 2009, only two simply had minority leads. 
The overwhelming majority of NBC TV content is produced by 
white individuals, or white- owned production companies. The 
Presidents of all 12 of the NBC cable networks are white. 
Ultimately, these individuals are influential in deciding what 
show runners are hired to produce the television shows that 
will air on these networks.
    Thus, it is important to have sufficient minority 
representation and programming to ensure diversity in content 
the network produces.
    Comcast Corporation also has problems with diversity and 
inclusion. Only one of Comcast's 13 member Board of Directors 
is an African American. Only two of Comcast's 28 corporate 
executives are African American. Comcast has 33 division 
executives, while three of these executives are minorities, 
there are no African American division executives listed on 
Comcast's Web site who head Comcast's programming group.
    When broken down further by each of Comcast's individual 
cable networks, only one has an African American President, and 
that is the Style network. There is one Latino executive; 
however, he is responsible for advertising and sales, not 
programming.
    The barriers to ownership for minorities and women have 
been studied by various universities and non-profit 
organizations. Currently, TV One is the only United States 
cable network with significant black ownership. That is Video 
One, Alfred Liggins, President and CEO, owns 37 percent of TV 
One. While Comcast carries the network on its mostly widely 
distributed tier, it is worth noting that Comcast owns 33 
states in TV One. In 2007, minorities owned just 3.2 percent of 
the United States television stations, despite comprising more 
than 34 percent of the population.
    In fact, of NBC's more than 200 affiliated television 
stations, only one is black- owned. Ironically, while the 
National Urban League and its chapters, among the first of our 
nation's Civil Rights groups to support the merger, it, too, 
released a study in 2005 detailing the broadcast networks' 
failure to have diverse guests on their Sunday morning news 
shows. The studies included that 60 percent of the Sunday 
morning talk shows feature no black guest at all, and that 78 
percent of the broadcasts contain no interviews with a black 
guest.
    Therefore, when we discuss NBCU or Comcast's lack of 
diversity, it is not merely isolated, or defined as the absence 
of minorities in front of the camera. Credible involvement of 
minorities start at the top, and trickles down through every 
job or position that is necessary to produce and distribute a 
television program, or motion picture.
    Therefore, it is imperative that NBC Universal and Comcast 
show its commitment to diversity, and negotiate, work with 
those groups to come up with a substantive plan that 
incorporates minorities in all aspects of its media programming 
and distribution activities. This begins with a strategy to 
extend opportunities for minorities in media ownership, 
management, programming, and advertising.
    Thank you, Mr. Chairman. And I yield back the balance of my 
time.
    [The prepared statement of Ms. Waters follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Boucher. Thank you very much, Ms. Waters. Appreciate 
your statement this morning.
    We now will recognize our panel of witnesses, and they are 
here by invitation. The witnesses are here by invitation only.
    Mr. Feldman. Mr. Chairman, I had submitted to your office a 
request to speak here.
    Mr. Boucher. Sir, you're out of order. We are recognizing 
our witnesses at the hearing at this time.
    Mr. Feldman. I ask you, please, to reconsider. I have 
testimony that I----
    Mr. Boucher. Sir, I'm sorry. The witnesses are here by 
invitation only. And we will now recognize our panel of 
witnesses.
    Mr. Jonathan Jackson is the national spokesperson for the 
Rainbow PUSH Coalition, and is speaking today on behalf of that 
coalition. Mr. Will Griffin is President and Chief Executive 
Officer of Hip Hop OnDemand. Mr. Samuel DeSimone is the General 
Counsel for EarthLink. Ms. Paula Madison is Executive Vice 
President and Chief Diversity Officer of NBC Universal. And 
Joseph Waz is Senior Vice President for Comcast Corporation.
    We welcome each of you, and without objection, your 
prepared written statements will be made a part of the record. 
We would welcome your oral summaries. And in the interest of 
time, because we only have this room until 11:00 today, we 
would ask that you try to keep those oral summaries to 
approximately five minutes. That will leave for us ample time 
to take questions.
    Mr. Jackson, we will be happy to begin with you.

  STATEMENT OF JONATHAN JACKSON, RAINBOW PUSH COALITION; WILL 
    GRIFFIN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, HIP HOP 
ONDEMAND; SAMUEL R. DESIMONE, GENERAL COUNSEL, EARTHLINK; PAULA 
MADISON, EXECUTIVE VICE PRESIDENT, CHIEF DIVERSITY OFFICER, NBC 
UNIVERSAL; JOSEPH W. WAZ, JR., SENIOR VICE PRESIDENT, EXTERNAL 
     AFFAIRS AND PUBLIC POLICY COUNSEL, COMCAST CORPORATION

                 STATEMENT OF JONATHAN JACKSON

    Mr. Jackson. Thank you, Chairman. My name is Jonathan 
Jackson. I'm the spokesperson for the Rainbow PUSH Coalition 
here in my father's behalf, Reverend Jesse Jackson.
    First I'd like to say good morning, Mr. Rush, Ms. Waters 
and other members of the panel. I welcome this opportunity to 
speak to you today concerning the proposed merger between 
Comcast and NBC Universal.
    In the context of economic emancipation, I ask what is 
Comcast's return on investment in assisting the economic 
empowerment of African American communities, and the 
underserved communities?
    In other words, why is it good business for Comcast to 
address two of the nation's most important challenges; one, 
creating jobs, and, two, helping to connect every American, 
especially people that are marginalized in our country today, 
to vitally needed news, information, and broadband internet 
services?
    With this proposed merger comes a rare, and perhaps the 
last opportunity to address critical issues in the global 
communications landscape. Therefore, we take the following 
positions as this merger is considered.
    An opportunity exists to create a new global media platform 
now. The opportunity exists to create a new minority-owned 
venture that can be empowered to create sustainable 
opportunities now. Diversity should be a top down priority in 
every aspect of the merger. The merger should not hinder new 
media, but help support it by creating new, more easily 
accessible technological platforms.
    On to the point of ownership. There are three minority 
owners in the Chicago market, controlling a total of three 
stations, or less than 5 percent of all of the commercial radio 
stations in Chicago; WJOB-AM 1230, is controlled out of Hammon, 
Indiana-based Vasquez Development, a Latino-female-owned 
company; WLTH-AM 1370, controlled by WLTH Radio, an African-
American-owned company; and WVON-AM 1690, controlled by 
Chicago-based African American-owned Midway Broadcasting 
Company.
    In a city that's over 40 percent African American, there's 
a dearth of media ownership happening in Chicago today. What 
was old media--what is new media is looking more like more of 
the old media. I encourage you to let's create the opportunity 
now, that the ship has now left the station, so to speak. And 
what we're experiencing now is less diversity than ever before.
    I can recall growing up when we saw an African American 
leading the news on CNN, we saw them at the White House years 
ago, and today it's none. In the City of Chicago, we have two, 
five, seven, nine, CLTV, what local networks that say you're 
proud to service the African American community.
    We know the power of images on television. Until those 
persons that have the power assume the responsibility to 
project positive images, how can a community develop and 
sustain itself?
    Some people need to be held accountable today. If we look 
at the music industry, we look at the film industry, I see that 
there's too much blame fixing on the children, and on the 
parents. Those corporate titans that have the power to shape 
the images, to shape the culture are not being held responsible 
for the music that's being produced, and the music that is 
being distributed. Some people would say they're only 
fulfilling the current need, that if people didn't like it, 
they wouldn't buy it. Well, if people don't have a choice, they 
succumb to whatever is left before them.
    That is what I would encourage you to do. Let's create 
opportunities today. We're going through, if you will, the 
third evolution, now into the fourth evolution of wireless 
technology. This Committee has missed it all. We have food 
banks for over 600,000 people do not have adequate supply of 
food in the City of Chicago. That's a major issue. We have 
broadband deserts where people cannot register online cannot 
take classes online, cannot look up information online. In the 
heart of Englewood, where we've seen something very tragic 
happen just yesterday of another officer being killed in as few 
as two months. So, gentlemen and ladies of the Committee, I ask 
you to have that in your consideration. I yield the rest of my 
time.
    [The prepared statement of Jonathan Jackson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Boucher. Thank you very much, Mr. Jackson.
    Mr. Griffin, we'll be happy to hear from you.

                   STATEMENT OF WILL GRIFFIN

    Mr. Griffin. Thank you, Mr. Chairman and members of the 
Committee, Congresswoman Waters, nice to see you again. 
Congressman Rush. Thank you for the opportunity to appear 
before you today to discuss the proposed combination of Comcast 
and NBC Universal, and who benefits from it.
    By way of background, I have seen the inner workings of 
most of the major media companies. While in law school, my 
faculty advisor was current Deputy Commerce Secretary, Dennis 
Hightower, who was the first African American President of Walt 
Disney Television. As the Director of the Harvard Consultation 
Project, I was advised by former Motown Chairman, Clarence 
Avant, who opened the door of access into the CEOs of the major 
record labels which started my career in the media industry.
    Subsequently, at McKinsey & Company's entertainment and 
media group, I worked on project at Time Warner during its 
post-merger integration with Turner, and I remember a 
discussion with AOL and Time Warner the same discussion, which 
was lack of broadband access, lack of diversity, and it was 
going to be the end of life as we knew it for all media 
companies, and it didn't work out for AOL for all practical 
purposes. I think all those intentions didn't come to pass.
    But, subsequently, I joined News Corporate in the Strategy 
and Marketing Group, and for the past 10 years I've been an 
entrepreneur in African American media producing film with 
Reuben Cannon and Bishop TD Jakes, and ultimately running a 
film and television production company in partnership with 
Russell Simmons and Stan Lathan, where we created and launch 
Hip Hop OnDemand on Comcast five years ago.
    These experiences have led me to support this joint venture 
with Comcast as the controlling partner for two overwhelming 
reasons. First, Comcast has the best Infrastructure of 
Inclusion to build upon in the media industry. And, two, 
African American consumers and policy makers have more 
potential leverage over Comcast than any other media company. I 
do not come to this conclusion lightly, because there is no 
doubt that the history of African Americans and media 
consolidation creates a visceral negative reaction to any 
merger or consolidation.
    When I watch Congresswoman Waters' hearings or Congressman 
Rush president over the legislation for Wall Street reform to 
insure the Side Streets and main street are protected from the 
excesses of Wall Street, I applaud. Likewise, I applauded the 
field hearing in June in Los Angeles, and I believe this 
hearing is vitally important, because I remember sitting in my 
dorm room in 1992 when Bill Cosby expressed his desire to buy 
the NBC network, a network that he turned around with African 
American programming, and was told it was not for sale. It 
begged the existential question, ``Why?''
    Many African Americans remember when Fox launched with a 
focus on African American programming. They had iconic shows 
like Queen Latifah in ``Living Single,'' ``Martin,'' ``Roc'', 
``New York Undercover.'' Then through a series of acquisitions, 
mergers, stock swaps and expansions into Fox News, the company 
has morphed into the monstrosity that we see today. From Queen 
Latifah to Glenn Beck. Why?
    More recently, when Viacom's UPN and Time Warner's the WB 
merged, the first casualties were the African American shows, 
``Girlfriends,'' ``Eve,'' ``All of Us,'' ``Everybody Hates 
Chris,'' that made up the bulk of UPN's line-up. Why?
    Here's my answer; because advertisers have only been 
willing to pay for a limited amount of African American 
impressions, and will not pay for every African American view 
generated. It is why African American icons like Chicago's 
legendary Johnson Publishing with Ebony/Jet are in decline, and 
it should be the subject of future hearings. We are just a few 
blocks from many of the companies that control the main source 
of revenue in the media industry, and I think that they should 
be held accountable. That's necessary if we are to remove the 
primary barrier to growth and sustainability in minority media 
companies. Your intervention and oversight of the advertising 
industry is sorely needed.
    This is true of my own experience with Hip Hop OnDemand. At 
about the same time that we launched on Comcast, three other 
African American channels also entered into long-term 
distribution agreements with Comcast, Video OnDemand, Quincy 
Jones III's channel, and TV One. Two of the other companies 
quickly folded because they couldn't secure advertisers. 
Fortunately, we had General Motors, the Coca Cola Company, and 
Reebok as charter sponsors. Then foreign-owned Adidas acquired 
Reebok and zeroed out their African American marketing budget. 
Then GM experienced their problems, came to Congress to bail 
them out, and re-emerged to profitability, and they have not 
come back to our channel, despite the fact that we have 
experienced viewership growth in each and every quarter. If my 
company was paid for every one of the 500 million potential ad 
impressions generated, I could have made my own run at NBC.
    The root of the problem is this, advertisers' unwillingness 
to allocate minority marketing budgets in proportion to 
viewership ratings, which brings me to why I supposed this 
transaction.
    Comcast has the best Infrastructure of Inclusion to build 
upon in the media industry. Some of the very systems at the 
core of the Comcast media empire were birthed by African 
American media owners. The Washington D.C. cable system was 
founded by Bob Johnson, and funded by Herb Wilkins and Syncom. 
Syncom in Chicago, along with John Johnson and George Johnson, 
founded the forerunner of Comcast's current Chicago Cable 
System. When the question is posed, ``who benefits,'' I think 
this history is important to note. This effort is all the more 
significant that a city founded by African Americans was the 
first to put broadband access within the reach for so many 
African Americans. Chicago was the first of the Comcast markets 
to go all digital. Analog boxes were able to be traded in for 
digital boxes at no additional cost to the consumer. This is 
particularly relevant to African Americans, because broadband 
access was considered an additional expense. When the digital 
boxes came in, it became easy to buy broadband access as part 
of a bundle, which I believe has contributed to helping 
increase broadband access in Chicago.
    Chicago is very unique in the United States in that respect 
in terms of the digital divide and the ability to use cable to 
get broadband access into African American homes. As more cable 
boxes are rolled out in other markets it will help bridge the 
digital divide.
    So, I think this history of Comcast corporate structure 
with African Americans is important, because I liken this 
corporate family tree to the Thomas Jefferson/Sally Hemming 
descendents, it's in your DNA, you might as well embrace it.
    I believe they have. I listened with great interest at the 
Field Hearing on June 7th, and I also listened with great 
interest to Congressman Rush's Opening Statement in a March 
hearing with FCC Chairman on the National Broadband plan and 
its omission of potential benefits to Small and Minority-owned 
businesses.
    In 2007, when Comcast allowed all of its Chicago analog 
subscribers to trade in their boxes, I believe they started 
going in the direction of what you were asking them in terms of 
the National Broadband plan. True, it's only a start, and more 
can be done, but I think this will be a big help in that 
direction.
    In minorities, there are substantial minorities in 
management positions among its tens of thousands of minority 
employees in Comcast. Moreover, in each of the last five years, 
that number has continued to grow at a rate greater than that 
of whites in the corporate structure. The minority composition 
is vastly superior to any other media company, and is eons 
ahead of the advertising, telecommunications, and financial 
services industries. That context is extremely important when 
we evaluate Congresswoman Waters' numbers, because what she's 
saying is true. But I think if you begin to look in terms of 
the direction of where Comcast is going, it's headed in the 
right direction.
    I'd also like to highlight some examples of how having 
thousands of minorities in leadership positions at Comcast has 
been invaluable to me as an African American media owner.
    When we launched along with three other channels, it was 
because Comcast Corporate Vice President, Payne Brown, came to 
dozens of African Americans in the creative community to 
educate us on the video on demand platform, and the multi-
billion dollar investment that Comcast was making to become the 
industry leader in VOD. When we saw the ability to get 
distribution and programming directly to our core viewers, we 
were one of the few who actually raised the capital, and 
secured the advertisers to pursue the opportunity. Once we were 
on the platform, we began to market our channel and get support 
from the African American General Managers, who run the cable 
systems here in Chicago, Washington, D.C., Houston, South 
Florida, and the entire Western Region of the United States, 
are run by African American General Managers at Comcast. It is 
no coincidence in the markets with the larger African American 
populations, and African American GMs are our top performing 
markets. As part of our ongoing process of making viewers aware 
of our channel, we have supplied information to Comcast's 
customer service teams, who are largely African American, and 
supervised by an African American female Senior Vice President, 
it helps when explaining our channel to subscribers.
    The result is that according to a study conducted by 
Starcom Media Group, African Americans are more than twice as 
likely to use VOD than any other demographic.
    Mr. Boucher. Mr. Griffin, you have exceeded your allotted 
time. Now, if you could just wrap up, we would appreciate that.
    Mr. Griffin. Sure.
    Mr. Boucher. We will come back to you for questions.
    Mr. Griffin. Sure. Well, I was reading the pages, but I 
believe the proposed Comcast-NBCU joint venture is a step in 
the right direction. Thank you.
    [The prepared statement of Mr. Griffin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Boucher. Thank you very much, Mr. Griffin.
    Mr. DeSimone.

                  STATEMENT OF SAMUEL DESIMONE

    Mr. DeSimone. Good morning, Chairman Boucher, Chairman 
Rush, Representative Waters. Thank you for inviting me to 
testify today on behalf of EarthLink.
    EarthLink is one of the national's largest, oldest 
independent internet service provider. And by independent, 
we're not affiliated with facilities-based provider of 
telephone, cable, or satellite services. We serve nearly 2 
million customers nationwide with dial-up, broadband, and other 
internet services, and frequently receive awards for our 
customer service innovation.
    I appear today to urge that the approval of the proposed 
merger between Comcast and NBC be conditioned on Comcast's 
entering into contractual arrangements with independent ISPs, 
like EarthLink, for wholesale, non-discriminatory broadband 
access, services at reasonable rates and terms.
    Since EarthLink's founding in the dial-up in the mid-1990, 
our mission has always been to provide consumers a fast, 
unfiltered direct connection to the content of the entire World 
Wide Web. EarthLink is one of the only ISPs out of thousands 
that offered dial-up access business that has been competing in 
the broadband market during the last decade.
    As we look at the emerging broadband services and the 
proposed merger, we believe independent ISPs can and should 
play an important role in the broadband marketplace. The 
proposed merger would significantly change the US media and 
internet landscape. A dramatic increase in the scope and scale 
of Comcast's control over the programming and content, combined 
with its dominant gateway control of the broadband network 
raises the risk that this will result in less competition, less 
consumer choice, decreased information diversity, reduced 
broadband investment and higher cost for consumers.
    The merger will create even broader economic incentives for 
Comcast to deny wholesale broadband access to competing ISPs. 
These enhanced incentives will flow from Comcast's need to 
protect the incumbent cable and anything you have to protect 
the growth of online video. It is reasonable to expect the push 
for Comcast to address these online stresses and formulate a 
business strategy, such as, one, tying consumer access to 
online content to a cable TV subscription so that the two can 
either break the bundle or cut the cord. Two, engage in 
broadband network practices that discriminate against competing 
online video distributors. Three, withhold information 
involving rivals from Comcast and NBC affiliated programming 
and content. Four, enforcing conceptual description of the 
current cable carriage agreements that prevent video 
programmers from offering further linkages to other online 
competitors. Five, increasing the slice of broadband access 
especially in areas where it's the only high-speed provider to 
discourage its use for online video.
    Whether distinctly or in combination, these strategies 
would harm consumers by forcing them to purchase bundles of 
services they do not need or want, and at higher prices for 
Wholesale Broadband Access Service. U.S. consumers would have 
more choices of broadband providers to access this new 
generation of internet services.
    In these difficult economic times, this choice would give 
consumers the option to break the bundle and purchase only the 
services they need. Independent ISPs will have strong 
incentives to bring consumers independent video without 
bundling of services that dominates the market today. In such 
an environment, a diverse array of independent video 
programmers will also benefit because independent broadband ISP 
will have no incentive to restrict access to their programming. 
The resulting competition for content diversity will help keep 
cable prices in check.
    These arrangements should be modeled on our successful 
arrangement with Time Warner Cable. Our original agreement with 
Time Warner arose from conditions imposed by the FCC on the 
AOL-Time Warner merger in 2000, under which Time Warner grants 
us the right to provide our award-winning service to consumers 
over their cable network, and in exchange we pay a mutually 
agreed upon fee to Time Warner. This agreement was renewed in 
2006, and continues to be mutually beneficial today. We have 
found that bringing consumers a valuable, competitive 
alternative helps drive broadband adoption and usage.
    EarthLink's recommended solution is simple, narrow, low-
cost, easy to implement, and has already proven to be effective 
in the marketplace. EarthLink believes competition would help 
U.S. consumers fully realize the power of diversity, and the 
possibilities of the internet. Thank you, and I look forward to 
your questions.
    [The prepared statement of Mr. DeSimone follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Boucher. Thank you very much, Mr. DeSimone.
    Ms. Madison, we'll be happy to hear from you.

                   STATEMENT OF PAULA MADISON

    Ms. Madison. Thank you. Chairman Boucher, Representatives 
Rush, Buyer, and Waters, it's a pleasure to be here today in 
Chicago to discuss the Comcast-NBC joint venture.
    As the home of two iconic African American-owned media 
businesses, a professional and personal friend and hero of 
mine, the late, great Vernon Jarrett, the Dean of Black 
Journalism, the windy city is a fitting backdrop for today's 
hearing.
    My written statement discusses in great detail the 
consumer- and innovation-related benefits of the deal, so I'd 
like to use my opening statement to highlight another important 
issue, the positive impact that this transaction will have on 
diversity.
    Although I currently serve as the Chief Diversity Officer 
for NBCU, and report directly to our President and CEO, Jeff 
Zucker, my career with the company began more than two decades 
ago in the newsroom as an Assistant News Director at WNBC, our 
flagship station in New York City.
    As I rose through the ranks of NBCU to become the first 
African American female President and General Manager of KNBC 
in Los Angeles, I experienced first-hand the company's 
commitment to diversity. During those years, I also made it a 
personal and professional priority to recruit, cultivate, and 
promote talented executives of color, so when Jeff Zucker 
approached me in 2007 about leaving the helm of KNBC to assume 
the role of Chief Diversity Officer, it was an opportunity that 
naturally complemented my career in the company.
    I decided to take on the new challenge, not because I 
needed to, but because I believe in NBC Universal, and remain 
deeply committed to helping people of color, both new hires, 
and existing executives succeed in the media and entertainment 
industry.
    One powerful example of the diversity issue within our 
company is my dear friend, Celia Chavez, the dynamic President 
and General Manager of WSNS Telemundo here in Chicago, who's 
here with us today. A 22-year veteran of the television 
business, Celia joined Telemundo in 1995, and has served in 
senior leadership roles in several major markets across the 
country, including Los Angeles, San Antonio, Los Vegas and 
Denver.
    Since joining WSNS here in Chicago, Celia has launched 
several new programs, including Hablando Claro, Speaking 
Clearly, a public affairs show focused on helping Chicagoans 
improve their daily lives. This city, NBC Universal, and 
Telemundo are all lucky to have Celia on their team.
    On the issue of diversity, enormous progress has been made 
in the five months since Mr. Zucker and Mr. Roberts testified 
at length before this Committee. Through a longstanding ongoing 
open dialogue, we've made real progress in addressing important 
issues raised by organizations representing communities of 
color, as well as some concerns members of Congress, as you 
heard here today.
    In early June, as an outgrowth of these talks and our own 
internal discussions, Comcast-NBCU announced a comprehensive 
series of formal joint diversity commitments covering a wide 
range of areas, workforce recruitment and career development, 
supplier diversity, media ownership, programming, and community 
investments and partnerships.
    In recent weeks, these important careers have been 
supplemented by an agreement among Comcast-NBCU, and several 
prominent organizations, including the National Council for La 
Raza, the Hispanic Association on Corporate Responsibility and 
the National Hispanic Media Coalition.
    I'd like to take a minute to draw your attention to some 
key details of the joint diversity commitments, which are 
attached in full to Joe Waz's testimony. Although I hope you'll 
have an even closer look at these documents, which I have here 
with me in order to better understand the depth and breadth of 
the commitments, let me point out some of the highlights of 
this document.
    At their core, these commitments not only build upon the 
success of past efforts at NBCU, but break new ground. Whether 
it's the establishment of four new external diversity councils 
to advise senior management, or the commitment to increase 
diversity among executive ranks with the assistance of 
professional search firms with proven track records of success, 
or the continued expansion of the geographic footprint in 
original programming budgets at Telemundo, or the significant 
increases in minority procurement and community philanthropic 
investments. These deals include concrete and tangible benefits 
for those who, like me, care deeply about diversity.
    As a veteran of the broadcast news business, I also want to 
mention the positive impact the Comcast-NBC new joint venture 
will have on free over-the-air broadcast television and news. 
By permitting to invest going forward in Telemundo and NBC News 
owned and operated stations, Comcast is clearly demonstrating 
its willingness to support this important industry, which 
millions of families, a disproportionate percentage of whom are 
low-income and minority, continue to rely on for their news, 
weather, sports, and entertainment programming.
    This deal does not resolve all of the unanswered questions, 
or solve every problem industry faces, but one thing is clear. 
It is an important and significant step in the right direction. 
As Vernon Jarrett famously said in his last column before 
retiring, the struggle goes on. And just as I have for the past 
20 plus years, I remain committed to continuing an open 
dialogue with anyone and everyone who is willing to work 
collaboratively and productively with NBC Universal, and the 
industry as a whole, as we take positive strides forward in 
advancing the cause of diversity. I look forward to answering 
the Subcommittee's questions. Thank you.
    [The prepared statement of Ms. Madison follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Boucher. Thank you very much, Ms. Madison.
    Mr. Waz.

                    STATEMENT OF JOSEPH WAZ

    Mr. Waz. Chairman Boucher, thank you, and thanks again for 
the opportunity to be here with you and your colleagues this 
morning.
    You presented the topic of this hearing in the form of a 
question: ``Comcast and NBCU Universal: Who Benefits?'' I 
appreciate the opportunity to answer that question.
    I believe that the benefits of this transaction will 
promulgate to the nation's economy, to all subscribers, multi-
channel video services, whether for Comcast or our competitors 
to all who rely on over-the-air broadcasting, to independent 
programmers, to creators of color, and to many, many others. 
I'd like to use my time to summarize some of these benefits.
    By bringing together content and distribution in this 
transaction, we see significant opportunities to grow our 
businesses, and to preserve and grow jobs in this sluggish 
economy. As our Chairman and CEO, Brian Roberts, has said on a 
number of occasions, ``This transaction is a bet on America at 
a time when few such bets are being placed.''
    Consumers will benefit because this transaction will 
accelerate the anytime, anywhere digital video future the 
consumers want and demand. All consumers will benefit because 
as Comcast becomes more innovative, our competitors in 
satellite, phone company, and other video providers need to 
innovate, too.
    As Ms. Madison explained, this transaction will benefit 
households that rely primarily on over-the-air broadcast TV, 
which are disproportionately minorities, senior citizens, and 
low or fixed income. Although broadcasting is a challenged 
business, we have committed to invest in NBC and Telemundo to 
make them stronger and to make the services continue to meet 
the needs of over-the-air viewers, and all viewers.
    Independent content providers will also benefit. We can 
never possibly serve the needs of all viewers solely with the 
content that this company will own. This transaction will help 
open up new opportunities on our OnDemand and online platforms, 
as well as our traditional cable platform, that we'll be 
pleased to discuss. And we hope that this will make possible 
many more success stories like those of Will Griffin and other 
independent content creators and entrepreneurs.
    In addition, we committed to add 10 new independently owned 
and operated cable networks over the next eight years, and we 
will dedicate most of those new opportunities to channels that 
are already owned and controlled. Moreover, as NBCU divests one 
of its Los Angeles television stations, it has committed to do 
its best to insure that a minority owner will acquire this 
station. And in the event that any future divestitures of 
broadcast or cable assets, we will take special steps to seek 
minority purchasers.
    Diverse communities across America will benefit. We have 
set a series of diversity goals in procurement, employment, 
governance and philanthropy to build on our current records, to 
help implement and monitor these initiates. As Ms. Madison 
mentioned, we will establish a joint diversity council to work 
collaboratively with our combined companies. The joint council 
will comprise councils representing the African American, 
Hispanic, and Asian Pacific Islander communities, and a fourth 
council to include representatives of veterans, the LGBT 
community, and people with disabilities, among others.
    Labor unions and guilds who produce creative content will 
benefit. We have reached out to them to convey our commitment 
to honor existing collective bargaining agreements, and we are 
grateful for the favorable comments on our joint venture for 
the Teamsters and the Directors Guild of America. Also 
benefitting in the transactions and parents and care givers, 
minority entrepreneurs, and new technology, and many others. 
And I hope to be able to say more about this during question 
time.
    Many of the public interest benefits I described flow 
organically from this transaction. Others are the result of 
discussions we've had over the last six months with responsible 
organizations and leaders who have thoughtfully raised their 
concerns, and worked with us in good faith to address them. For 
example, as Mr. Buyer has noted, we had discussions with NBC 
network affiliates and non-NBC affiliates. They wanted to 
ensure that our commitments were sincere and we have reached a 
firm that they believe that. We've also met with diversity 
leaders, independent producers, and many others. We have 
reached a number of mutually satisfactory agreements with 
various stakeholders, and hope to announce more in the coming 
weeks.
    I think this shows how Comcast has always approached our 
business and our public interest responsibilities through a 
willingness to have open dialogue with reasonable people about 
legitimate concerns. And we always sought resolutions that are 
good for all sides.
    Mr. Chairman, I'd like to close by noting the massive 
record of support for transaction at the FCC. As of last 
Friday, over 860 organizations and leaders, including 84 
members of Congress, eight governors, over 115 state 
legislators, over 40 mayors, and countless Chambers of 
Commerce, civil rights, civic and community organizations have 
filed supportive comments. More than 100 of these filings came 
from Greater Chicago, and, Mr. Chairman, with your permission, 
I'd like to ask that they be made part of the record.
    Mr. Boucher. Without objection, that will be included in 
the record.
    Mr. Waz. Thank you, sir.
    Mr. Boucher. Does that conclude your testimony?
    Mr. Waz. One last comment, if I may.
    Mr. Chairman, I'm also pleased to share with you, with Mr. 
Rush's and your acquiescence a letter that our Executive Vice 
President and Chief Diversity Officer, David Cohen, has sent to 
Congressman Rush. The letter summarizes some further 
refinements of our diversity commitments that were brought up 
in our discussions with Congressman Rush. We also continue to 
discuss certain concerns that Congresswoman Waters has and were 
brought to our attention, as well.
    And we've very excited about this transaction. Thank you 
for the opportunity to share our views, and now I do look 
forward to your questions.
    [The prepared statement of Mr. Waz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Boucher. Mr. Waz, thank you very much. And thanks to 
each of our witnesses for sharing your views with us on the 
matter this morning.
    I have just a couple of questions. Mr. Waz, I know that 
Comcast, as part of its voluntary undertaking on diversity 
matters has committed to add at least two independently owned 
channels to its lineup in each of the next three years. And 
it's also committed that at least half of those channels will 
have substantial minority ownership interest. Is it your intent 
to put those independently owned channels on all the Comcast 
cable systems, or only on part of them?
    Mr. Waz. Mr. Chairman, first of all, let me begin by just 
updating the commitment as we continue to have discussions with 
our diversity organizations, and the agreement we have reached 
with the Hispanic Leadership organizations.
    We plan to enhance the commitment so that we're now 
prepared to add 10 independently owned and controlled channels 
over a period of eight years. We intend for four of those to be 
owned by the Latinos. And per the letter that we were sharing 
with Mr. Rush this morning, we have also committed to make a 
minimum of four of those channels, channels that are owned and 
controlled by African Americans. We intend to give them 
substantial carriage according to what I'll call customary 
terms and conditions in the industry. Each new network needs an 
opportunity to establish itself, and we've worked with--I'll 
give you an example of a network in which we had an ownership 
stake, and that is TV One.
    I think TV One stands out as, actually, exactly the sort of 
opportunity that Congresswoman Waters and others are pointing 
to, which is what can a company, a significant media company do 
to help promote media ownership, media distribution 
opportunities for African American programming? And I think as 
he was alluding in his testimony in Los Angeles, he stated how 
important and how sincere the Comcast commitment was to help 
them grow that effort.
    Even that network at conception did not appear on all 
Comcast systems. And even today, we continue to add it on 
Comcast systems. So, I would anticipate in each case with each 
of these networks that we talk with, we will reach terms and 
conditions for appropriate levels of introduction of these new 
networks in markets as appropriate across the country.
    Mr. Boucher. Well, I guess my question is, have you 
determined what markets are appropriate, and what assurance do 
we have that while the commitment you have independently come 
to, for example, minority ownership interest in a number of 
these channels, new channels added, that we are given to 
understand that there are actually going to be carried on a 
very large majority of your cable systems. Can we get that 
assurance?
    Mr. Waz. I can assure that we intend to work with each 
independently owned channel, just as we work with several other 
new independently owned channels, more than a dozen of whom I 
believe have put letters on the record with the FCC saying that 
it's independently owned and operated channels. They work very 
successfully with Comcast in order to do this.
    Mr. Boucher. OK. Let me ask you another question. As was 
indicated by Mr. Jackson in his testimony earlier, there is a 
notable lack on major networks of prime time programming with a 
minority presence. And we don't have anything on any of the big 
four networks today that remotely resembles the ``Cosby Show,'' 
for example.
    I'm wondering if the diversity commitments that you have 
voluntarily made, which I view as extensive, would serve to 
increase diversity programming on prime time network 
programming, in your opinion?
    Mr. Waz. I'm hopeful that that will be among the many 
salutary results of--if I may, if I can defer to Ms. Madison, 
who will offer her opinion.
    Mr. Boucher. Ms. Madison, do you care to comment on that?
    Ms. Madison. Yes, Mr. Chairman.
    We entered into an agreement back in 2000 with four 
external watchdog groups, and we've been reporting up to them 
annually, and quarterly, actually, for the past three years. In 
that time period, we have continued to add diversity both up 
front and behind the counter. There's no question that the 
industry has a long way to go, and this is not a situation 
that's limited to just NBC Universal. But having said that, and 
specifically regarding the ``Cosby Show,'' we have at NBC 
Universal increased the numbers of on-camera actors who are 
diverse year over year, so much so that this season coming up 
beginning in September, we have our most high-profile new drama 
called ``Under Cover,'' which has two blacks as the leads in 
the show. There's a cast of four people, of that cast, two are 
leads, one is also African American, who is also in that cast, 
and there's one white male. We also have the President of the 
United States cast as an African American in a lead role in 
another program called ``The Event.'' And we also have a famous 
actor, Jimmy Smits cast as a former Supreme Court justice in 
another one of our major dramas that's called ``Outlaw.'' So, 
we are moving----
    Mr. Boucher. So your answer is, the trend is positive.
    Ms. Madison. Yes, it is.
    Mr. Boucher. And we would see this confirmation on the 
voluntary commitments that it entails as, perhaps, accelerating 
that trend?
    Ms. Madison. Yes. I think that's reasonable.
    Mr. Boucher. Mr. Griffin, let me ask a question of you. As 
I'm sure you're aware, NBC, you, and Comcast have made a number 
of voluntary commitments respecting diversity in the areas of 
corporate governance, employment, procuring programming, et 
cetera. You support the confirmation. Is it your view that 
these voluntary commitments might encourage other media 
companies to step up and follow suit? Could we expect this to 
become an example that other media companies might be expected 
to follow?
    Mr. Griffin. Yes. I think that's the secondary benefit, but 
I think the primary benefit would be among advertisers and 
private equity and venture capitalists, because they will step 
up and say there is a distribution commitment to this type of 
programming. And then they will come into the market and say if 
it's over a decade, and we know we can invest our client's 
money into these companies and then they will get support, 
that's a direct benefit to the industry and the programming.
    Mr. Boucher. All right. So that level of investment would 
increase the volume of independent programming that might 
encourage, entice some of the other media companies, but select 
the programming they think is the most attractive and 
appealing. You have more volume and more companies might be 
willing to accept your content. Would that be a fair 
conclusion?
    Mr. Griffin. Supply and demand.
    Mr. Boucher. Mr. Jackson, would you care to comment on 
these letters?
    Mr. Jackson. Well, yes. I'd like to share with you that I 
tried to purchase Eye on Media this past December when they 
were in bankruptcy. I went in with a hedge fund to purchase the 
debtor in possession paper. The current management had offered 
$150 million. Our package was $250 million, at which time we 
went through appeal, and went through the courts in the New 
York area, and there were aggressive bankruptcy practices 
issues that they had. And we were unsuccessful.
    But here's another case where minorities, and I was leading 
the group, showed up with more money than the current 
organization that failed in its operation of 64 radio and 
television stations, but we could not have equal access. So, 
I'm just a little bit concerned about the conversation that's 
happening now, because I'm not really concerned talking about 
diversity, I'm talking about equal opportunity in that access 
to stations that affect the public interest.
    What I'm talking about is equal opportunity, not diversity. 
I think it would be too much of a burden to place upon the 
owners of Comcast and NBC to have, to be able to select 
philanthropy. I think there's enough entrepreneurs in the 
community that like to shape our own destiny without having 
someone else that needs to work up the bottom line for their 
company to be concerned about how they will diversify. If we 
had access to ownership, we can diversity ourself. We can hire, 
and we can reverse diversity where blacks can hire Caucasians, 
or not necessarily Caucasians have to put blacks in front of 
the screen. I think that's very important.
    And I will tell you that in Chicago, a community that's 
over 50 percent female, there's less than 6 percent ownership 
in television and radio by females. So, in order to move 
America forward, I think women and children have to have a 
place on the agenda. So, it's not about getting a black on the 
screen, or whatever. It's also effecting what the demographics 
are.
    I've seen more fictitious programming on a child that was 
not in a balloon, dealing with CNN and everybody running their 
programming that over 50 million Americans facing hunger, more 
than a million American students going to school that are 
technically described as homeless by the Department of 
Education, so where's the real news, where's the real content 
coming from, not just the window dressing. So, I would like the 
conversation to be about opportunity, not philanthropy, not 
about just diversity, but about the divestiture, so we can have 
equal opportunity, and equal access to create more.
    Mr. Boucher. OK. Thank you very much. My time has expired.
    The gentleman from Indiana, Mr. Buyer, is recognized.
    Mr. Buyer. Mr. Jackson, you kind of pulled me in. Do you 
want me to believe that minority ownership directly relates to 
minority programming? Is that what you want me to believe?
    Mr. Jackson. That minority? Say it again, I'm sorry.
    Mr. Buyer. Minority ownership directly relates to minority 
programming.
    Mr. Jackson. Could you further explain?
    Mr. Buyer. No, is that the statement that you want me to 
believe based on your statement?
    Mr. Jackson. Yes. Correct.
    Mr. Buyer. And in order to achieve that, are you saying 
that we're to ignore economics principles?
    Mr. Jackson. No.
    Mr. Buyer. OK. And if we say no, then how is it achieved? 
It's almost like with Mr. Griffin, your testimony. I was 
following you all the way up to where you made your comment, 
``If my company was paid for every one of the 500 million 
potential ad impressions, I could make my own run at NBC.'' 
Well, that's if everyone would buy every widget every 
manufacturer made in my congressional district, they'd make a 
lot of money. I mean, I don't know how--I know I followed you 
all the way up until you made that statement, I want you to 
know.
    I also want to put this on the record, Mr. Griffin. I want 
to congratulate you. I think you've had an extraordinary 
career. And I read your statement last night. I've also 
followed you, so I want publicly to say, and I wanted to take 
the opportunity to say it personally, that I respect you, and 
congratulate you on your career.
    Mr. Griffin. Thank you.
    Mr. Buyer. Your statement with regard to some of the 
programming with regard to--that fell out, ``Girlfriends,'' 
``Eve,'' ``All About Us,'' ``Everybody Hates Chris,'' there is 
something else in the marketplace, is there not, Mr. Griffin, 
that the total audience reach must be great enough to cover the 
cost of production. Isn't that a basic in your business?
    Mr. Griffin. Yes.
    Mr. Buyer. Yes. And if it doesn't work, they're going to 
cancel the show. That happens a lot, doesn't it?
    Mr. Griffin. Well, yes, but there are three parts of this. 
One part is the cost of the programming. The other part is the 
availability of distribution, and then the third is revenue 
generate, or here's the profit.
    Here's the problem. When you have a success, like when you 
have a ``Seinfeld,'' you make a--if there are 10 million 
viewers, advertisers will pay you for all 10 million viewers. 
If you have ``A Different World,'' which was as big as 
``Seinfeld,'' but it was on and 10 million viewers, advertisers 
were only paying you for 8 million, because the African 
American budget stops at a certain amount, so the minority 
budgets at advertisers are smaller, which means their money 
runs out, so you don't get paid the same. So, you're actually 
being paid less money per viewer than you would for a white 
household because the budgets are smaller. And what that means 
is there's a defect in the market.
    Now, when there are market defects, it creates 
opportunities for some people to take advantage of. What we're 
trying to say, what we've been saying to Comcast, at least on 
the OnDemand platform, what should be independent areas, and 
what independent is, there is an opportunity now to capture 
more of that market because of the defect, but in order to 
solve the defect, we have to go to advertisers and get them to 
commit to pay us for every view or impression generated. I 
mean, what you're saying is a textbook argument, which is hey, 
not enough money, cancel the show. Yes, but the issue, you 
know, I think Congresswoman Waters said it, why isn't there 
enough money. Because Coca-Cola, General Motors, Johnson & 
Johnson will not pay for every African American impression. 
That's the bottom line. There's a defect in the market. It's 
not working efficiently, so that creates an opportunity for 
Comcast and Universal to go capture it.
    Mr. Buyer. Mr. Waz, in the non-affiliates agreements--first 
of all, let me also take the opportunity, once again also 
compliment what you did in the marketplace.
    Mr. Waz. Thank you, sir.
    Mr. Buyer. I got a lot of these different companies 
together, what I thought was going to happen, even those 
outside the non-affiliates would attach their concerns into the 
non-affiliates consortium, but you can't get everybody in the 
same room. And not everybody, necessarily, agrees, so you end 
up with sort of a, even though we have a non-affiliates 
agreement that made it to the table, those three only brought 
issues which were of consensus. So, even though there's a piece 
of paper in front of us, I believe that there's still work yet 
to be done. That's just my own personal sensing from this. And 
you have to believe that, too.
    Mr. Waz. As with all the agreements that we have reached, 
or hope to reach, I'm sure there will be continued discussions 
about this.
    Mr. Buyer. Is broadcasting still relevant in the new media 
environment?
    Mr. Waz. Broadcasting is still the way to attract mass 
audiences. It's the place where special events in America, 
where America still gathers collectively to watch major events: 
sports, inaugurations and other events. So, we believe 
broadcasting absolutely has a place, and we're investing to try 
to make broadcasting in the form of NBC and Telemundo stronger 
and sustainable in the future. And working with the affiliates 
today.
    Mr. Buyer. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Buyer.
    The gentleman from Illinois, Mr. Rush, is recognized.
    Mr. Rush. Thank you, Mr. Chairman.
    Let me, first of all, begin by asking Mr. Jackson a 
question. In your exchange with my colleague from Indiana, Mr. 
Buyer, what is your counsel for the need to have more 
minorities to own networks, media, and you said that if the 
minorities owned the media, then the possibility, or the 
proclivity, or reason for this conversation that more minority 
ownership would mean higher ads and there would be more 
minority programming. Is that correct?
    Mr. Jackson. Yes, sir.
    Mr. Rush. Now, that's very important, and I agree with you. 
But would you limit your ownership, or limit those same results 
to--let me put it like this. If an African American owned a 
station that was aimed at say a mostly white market, would that 
African American be successful owning that station, or is it 
just limited to an African American market to have to provide 
media opportunities and media services to the African American 
community?
    Mr. Jackson. That's a great question. It would speak to the 
local demographics, that the NBA can be majority owned by 
Caucasians, and predominantly having the players to be African 
American. They can have an international market appeal. Well, 
that speaks to the demographics as it relates to basketball.
    The same thing would happen, if you're in a rural area 
being mostly Caucasian, naturally, you would adjust the 
programming. And the same thing would happen here in the City 
of Chicago, where the local content and news, we have very 
pressing issues, could reflect the community interest.
    Mr. Rush. Just because it's African American owned network 
does not mean that that network should be, or has to be geared 
toward an African American demographic. Is that right?
    Mr. Jackson. Correct. And I would cite the example of 
Motown, and the music that it created. There are general 
markets that we--I don't know if Mr. Buyer was asking me a 
question, or made a statement, but I would say that as far as 
local, about African American ownership and content, that I 
would look at--I don't know if it was denied, or if it was an 
oversight, for the first time my son saw the word ``hate'', and 
asked me could I share with him how it was a bad word. He was 
looking at an outdoor billboard, and the billboard read 
``Everybody Hates Chris.'' And he's a young African American 
male child, and he sees ``Everybody Hates Chris,'' but 
``Everybody Loves Raymond.'' So, if we had access to 
opportunity for ownership, we could help shape that imagery 
ourselves.
    And I would refer you to the FCC document that Mr. Griffin 
was----
    Mr. Rush. No, you're on my time.
    Mr. Jackson. Sorry, sir.
    Mr. Rush. I'm being charged with it, so let me move on.
    Mr. Buyer. Mr. Rush?
    Mr. Rush. Yes.
    Mr. Buyer. Will you yield to me an extra minute?
    Mr. Rush. Yes.
    Mr. Buyer. I just want to touch this, because you referred 
to something that I would make comment on.
    The reason I had made that perhaps as a statement, I wanted 
to get a sense of what you're urging not just us, but people to 
believe based off your testimony. OK? Well, I can agree with 
you that you say a minority owner can increase minority 
programming, I do not believe that a minority owner would say 
that that only means minority programming. I don't believe 
that, because it's economics. You're a businessman. That's why 
I compliment Mr. Griffin. You're going to follow the dollar. 
You're going to also follow the eyes. You're going to also 
follow the advertising. You're also an artist, and you can 
build things, and want to be creative. You want to deliver into 
the marketplace. And that's what's important, especially 
capturing the new wave on the delivery of video services. And 
that's what Mr. Rush----
    Mr. Rush. I'm reclaiming my time, Mr. Chairman. I know my 
timing and I do have some very important questions I want to 
ask.
    First of all, I want to--after listening to, and discussing 
and sometimes heated exchanges with a number of interested 
stakeholders, Mr. Chairman, I want to ask for unanimous consent 
for this Committee to accept additional information in the form 
of a letter, as mentioned by Mr. Waz earlier as to the 
agreement that Comcast submitted to the FCC that outlines their 
specific plan for including the minorities in a more robust and 
regular basis.
    Mr. Boucher. No objection.
    Mr. Rush. All right. And a little more with the letter just 
entered into the record. Can you expound more on, if you will, 
on the Venture Capital Fund that you have included in terms of 
this letter? Can you expound more on that? What--can you give 
us more of the details, and what problems are you attempting to 
solve going forward?
    Mr. Waz. Mr. Rush, thanks for the opportunity to talk more 
about it. I've been a friend of David Honig, the Minority Media 
Telecommunications Council for probably three decades now, and 
he has fought and tried for many years to try to create more 
opportunities for minority ownership, pursuing policies such as 
tax certificates, which have been supported on a bipartisan 
basis at various points and other efforts to support minority 
ownership in traditional media.
    Over the last few years, he and I have been talking a lot 
about what are the opportunities in new media and in technology 
for minorities, and this is an excellent time to be moving 
forward to ways that in an internet-based world where frankly 
there are fewer barriers, fewer distribution barriers, that 
there could be more innovation, more opportunities for minority 
entrepreneurs.
    I know that Commissioner Clyburn of the FCC has mentioned 
on a couple of occasions that she knows someone, an African 
American who started a very successful Web site for, I believe 
the number is $256, that may be on the high side, those numbers 
she cited, but it was--you can do a lot with a little in this 
market.
    What we think would be beneficial is to create more 
opportunities specifically to seek attractive young talent, 
people who would be interested in moving into the new 
technology fields from the minority community, and coming up 
with appropriate funding base to get them started. So, the 
notion we've laid out in the letter to you this morning says 
that we are prepared to make $20 million of investment capital 
available through a new program within Comcast that will look 
exactly to those sort of opportunities, and work with a diverse 
leader of that fund effort to identify funding opportunities.
    Mr. Rush. Will you address and expound upon, or you have in 
your letter divestiture of 40 assets and minority ownership. 
What do you mean by that, and what is that aimed at?
    Mr. Waz. In connection with this transaction, the only 
anticipated divestiture of asset is the Station KWAY in Los 
Angeles. That station is currently owned by NBCU-Comcast until 
its closing and what happened at KWAY. But NBCU has made a 
special effort, in fact, has hired an NTC, which has a 
brokerage business, has been very successful at finding 
minority buyers, minority purchasers for radio, and cable and 
TV stations over the years to create that ownership opportunity 
there.
    In the event of any other cable divestiture, or broadcast 
divestiture in the future, which would be required out of this 
transaction, we will be similarly creative, and similarly 
destructive in looking for minority ownership opportunities.
    Mr. Rush. Mr. Chairman, I yield back.
    Mr. Boucher. Thank you very much, Mr. Rush. Ms. Waters.
    Ms. Waters. Well, thank you very much, Mr. Chairman. I 
would like to preface my remarks by saying that my colleague 
was correct about this merger being under the radar screen, 
being very quiet, not being talked about until I requested and 
received from the FCC an extension of the comment period. I got 
45 extra days for the comment period because it had been very 
quiet. And I also requested of the FCC to hold hearings, and 
one will be coming up. And I got the Chairman of the Judiciary 
Committee, Mr. Conyers, to hold a hearing, and I'm very 
appreciative for this hearing.
    Why is all of this important? It is important because 
neither NBC, nor Comcast, made any of these moves that they're 
describing until all of this began to unfold. Since we have 
been highlighting this merger, and talking about the lack of 
diversity, then we're finally getting some people coming 
forward to talk about doing some things.
    As a matter of fact, the Latino that was placed on the 
board of, what is it, NBC or Comcast? Comcast plans to add a 
Latino Board member amid proposed NBC deal. This happened in 
the past few weeks. The proposal that you just alluded to that 
you're giving to Mr. Rush today, I'm glad we're having this 
hearing, so that you can give it to him, because we've not 
heard about that until the last few days.
    The Memorandum of Understanding that you have with the 
Latino group came about in this period of time that we created 
to have more comment, and to have hearings. So, we have to keep 
up the pressure, because despite the fact that both NBC and 
Comcast talk about their commitment to diversity, it has not 
been evident. You don't have diverse companies. I don't know 
how many years you've been working at this, but you've not been 
successful. So, we've got to help you. We've got to help you to 
be successful.
    It is absolutely unacceptable. We're talking about some 
programming, and I think the Chairman asked a significant 
question, because the devil is in the details, about whether or 
not you create channels and opportunities. We're talking about 
distribution and carriage, and there's no commitment to that. 
He questioned you very closely, and you did not give him a 
specific commitment to distribution and carriage.
    Let me just go to another aspect of this that bothers me. 
Let's take a look at NBC News. Early today, Glen Berry, Bill 
Cowan, Fred--all white. Today we have some diversity, Matt 
Lauer, Meredith Vieira, Ann Curry who I guess is going to be 
gone, along with Al Roker, MSNBC, First Look, all white, Glen 
Berry, Thomas Roberts, Way Too Early with Willie Geist, all 
white. My friend, Morning Joe, Joe Scarborough, Mepa, Rasinski, 
Willie Geist, all white. All of this is MSNBC. The Daily 
Rundown, Chuck Todd, white. Savannah Guthrie, white. MSNBC 
Live, Chris Jansing, Tamron Hall, one black, Andrea Mitchell 
Reports, white. Hardball, Chris Matthews, the Ed Show, my 
friend Ed Schultz, all white. Countdown with Keith Olbermann, 
like him a lot, all white. The Rachel Maddow Show. Well, what 
is that?
    When you sit here and you talk about this vast audience 
that you have, that's depending on the news, you've got to ask 
yourself why, why don't we have more diversity in the news 
that's reporting from African American, Latino, Asian 
perspectives on what's going on. This can't continue. And if 
this merger takes place, if this consolidation takes place, and 
we don't have a way of enforcement by which we can force you to 
live up to commitments for diversity, we end up in a democracy 
with consolidation that does not serve the best interest or the 
images of all of the people who deserve, as citizens of this 
country and this democracy, to be served.
    I could go on, and on, and on about all of NBC shows. When 
the Chairman first came to the Judiciary Committee, Mr. Zucker 
told me that they didn't have any African American shows in the 
new season because he couldn't find any producers and 
directors. And I said I know a lot of them, let me help you.
    I don't understand how this business works. And we have 
staff full-time working to discover exactly how you do work, 
and what you have, and what you don't have. And I want you to 
know you have failed miserably. I yield back the balance of my 
time.
    Mr. Boucher. Thank you, Ms. Waters.
    I want to say thank you to the witnesses for joining us 
here today. Ms. Madison, to you, in particular, congratulations 
on your long career, and commitment to diversity issues. To all 
of the witnesses, thanks for the constructive comments that 
you've made. You have made this hearing a success, and I very 
much appreciate the commentary you have shared with us today.
    Mr. Rush, did you want to say a word?
    Mr. Rush. Yes, Mr. Chairman, before we adjourn. I just 
would like to state for the record that as we proceed down this 
path, I'm not sure what is being filed. I'm not sure whether 
the FCC, what their final ruling will be. I'm not sure what the 
Justice Department's final ruling will be. My colleague from 
California, Ms. Waters, made some very profound statements. And 
one of the things that I know is that this is, or can be, or 
should be if the stakeholders, the affected parties, Comcast 
and NBCU, we can begin to rewrite the sordid history, 
particularly over the last eight years, continuing the trend in 
media ownership.
    I sat on this Committee for 15 or more years now, and the 
last eight years have been the most horrendous eight years that 
I've seen in terms of the FCC. Although the Chairman, who is 
the outgoing Chairman, always had a receptive ear, making empty 
promises and pledges that he was going to look for new 
ownership, he never engaged not one millisecond in pursuit of 
media opportunities for ownership for black people in media 
ownership. That day is over, and that time has past. He is 
gone. This is a new day, new time, new opportunity. And we have 
a new administration, new members of the FCC. We will work 
vigorously in terms from an oversight perspective, and also 
from an activist perspective to ensure that, whatever you are 
promising, it's those promises that you make.
    Whenever you return back before the appropriate authority 
and that you're going to be dragged through the mud and the 
world will know that you have broken your promises. So I want 
to know that these were just not being done in the back room.
    I hope that this is the beginning of the something 
meaningful and important, and we can try to level the playing 
field as it relates to minorities and media ownership. Mr. 
Chairman, with that, I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Rush. I'm going to 
ask unanimous consent to insert into the record a letter signed 
by Tracy Jenkins Winchester, the President of the Multi-
Cultural Network. Without objection, this will be made part of 
the record.
    Our witnesses have done a great job today. Our thanks to 
you, our thanks to members of the panel for their decisive 
questions, and this hearing stands adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
